<html>
<title> - FRACTURED SCIENCE: EXAMINING EPA'S APPROACH TO GROUNDWATER RESEARCH: THE PAVILLION ANALYSIS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]








                           FRACTURED SCIENCE:
                        EXAMINING EPA'S APPROACH
                        TO GROUNDWATER RESEARCH:
                         THE PAVILLION ANALYSIS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      WEDNESDAY, FEBRUARY 1, 2012

                               __________

                           Serial No. 112-58

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

72-655PDF                 WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. ANDY HARRIS, Maryland, Chair
DANA ROHRABACHER, California         BRAD MILLER, North Carolina
ROSCOE G. BARTLETT, Maryland         LYNN C. WOOLSEY, California
FRANK D. LUCAS, Oklahoma             BEN R. LUJAN, New Mexico
JUDY BIGGERT, Illinois               PAUL D. TONKO, New York
W. TODD AKIN, Missouri               ZOE LOFGREN, California
RANDY NEUGEBAUER, Texas              JERRY McNERNEY, California
PAUL C. BROUN, Georgia                   
CHARLES J. ``CHUCK'' FLEISCHMANN,        
    Tennessee                            
RALPH M. HALL, Texas                 EDDIE BERNICE JOHNSON, Texas



















                            C O N T E N T S

                            February 1, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    18
    Written Statement............................................    20

Statement by Representative Brad Miller, Ranking Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    21
    Written Statement............................................    22

                               Witnesses:

Mr. Jim Martin, Region 8 Administrator, Environmental Protection 
  Agency
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Tom Doll, State Oil & Gas Supervisor, Wyoming Oil & Gas 
  Conservation Commission
    Oral Statement...............................................    31
    Written Statement............................................    33

Ms. Kathleen Sgamma, Vice President, Government & Public Affairs, 
  Western Energy Alliance
    Oral Statement...............................................    45
    Written Statement............................................    47

Dr. Bernard Goldstein, Professor and Dean Emeritus, Graduate 
  School of Public Health, University of Pittsburgh
    Oral Statement...............................................    53
    Written Statement............................................    55

             Appendix I: Answers to Post-Hearing Questions

Mr. Jim Martin, Region 8 Administrator, Environmental Protection 
  Agency.........................................................    82

Mr. Tom Doll, State Oil & Gas Supervisor, Wyoming Oil & Gas 
  Conservation Commission........................................    98

Ms. Kathleen Sgamma, Vice President, Government & Public Affairs, 
  Western Energy Alliance........................................   120

Dr. Bernard Goldstein, Professor and Dean Emeritus, Graduate 
  School of Public Health, University of Pittsburgh..............   123

            Appendix II: Additional Material for the Record

Submitted Report for the Record by Representative Brad Miller, 
  Ranking Member, Subcommittee on Energy and Environment, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   127

Submitted Letter for the Record by Pavillion Area Concerned 
  Citizens, The Powder River Basin Resource Council, and The 
  Western Organization of Resource Councils......................   135

Submitted Statement for the Record by Chairman Ralph Hall, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   145

Submitted Statement for the Record by Representative Paul D. 
  Tonko, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................   168

 
                           FRACTURED SCIENCE:
                      EXAMINING EPA'S APPROACH TO
                         GROUNDWATER RESEARCH:
                         THE PAVILLION ANALYSIS

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2012

                  House of Representatives,
                    Subcommittee on Energy and Environment,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Harris. The hearing is called.
    I am going to read, before we start the hearing, I just 
want to remind all the Members of the audience what the 
Committee rules are, and as a functioning body, a legislative 
body, we of course have rules. That is the way society works. 
You have to live by the rules and agree to the rules, and the 
Ranking Member had indicated before the hearing was gaveled in 
that we should discuss it, but I will bring the Ranking 
Member's attention to the rule, rule number 9, the following 
shall apply to coverage of Committee meetings or hearings by 
audio or visual means, subsection J is very clear: personnel 
providing coverage by the television or radio media shall be 
currently accredited to the radio and television correspondents 
galleries and that personnel providing coverage by still 
photography shall be currently accredited to the press 
photographers galleries.
    Obviously, someone who records this hearing is to be 
credentialed. I will remind the Members of the audience and the 
Ranking Member that on the House Floor, you can't even bring a 
cell phone into the gallery. We allow cell phones but we do 
draw the line at what recording devices, when you use a 
recording device, that you have to be credentialed.
    I would also note that this hearing is being webcast at 
science.house.gov in its entirety, every word, every phrase, no 
editing, and it will be available in its entirety on the same 
site following the hearing. Therefore, every piece of 
information from this hearing is fully available to every 
member of the public. That is why we have rules that control 
who is recording because every bit of information is available 
to the public, just so we clear the air on that.
    With that, I would like to begin my opening statement.
    Mr. Miller. Mr. Chairman, I move--in addition to the fellow 
who was just escorted out, who I understand was not 
credentialed, although he is, I understand, filming an HBO 
documentary, an ABC crew showed up earlier and they were turned 
away on the stated reason that they had not requested the film 
in advance. I think all those rules are to control access where 
there is limited access. It is very clear that we have space in 
this room for either of them to testify--to film this hearing.
    If you claim that that rule does not provide--does not 
allow them to film or more accurately allows you the 
discretion, the majority the power to turn them away, I move 
that the rules be suspended to the end, that the HBO--the 
fellow who wanted to film for HBO be allowed to film this 
hearing and that ABC News be allowed to film this hearing, and 
all God's children be allowed to film this hearing until the 
room is too full to conduct our business.
    Chairman Harris. Does the Ranking Member intend to persist 
with that motion?
    Mr. Miller. I do.
    Chairman Harris. Well, then, we are calling a recess 
because we don't have a quorum on the Committee.
    [Recess.]
    Chairman Harris. All opposed? In the opinion of the Chair, 
the ayes have it.
    Mr. Miller. Mr. Chairman, I ask for a recorded vote.
    Chairman Harris. A recorded vote is ordered. The clerk will 
call the roll.
    The Clerk. Chairman Harris?
    Chairman Harris. Aye.
    The Clerk. Chairman Harris votes aye.
    Mr. Rohrabacher?
    [No response.]
    The Clerk. Mr. Bartlett?
    [No response.]
    The Clerk. Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mrs. Biggert?
    [No response.]
    The Clerk. Mr. Akin?
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye.
    Mr. Neugebauer?
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye.
    Mr. Broun?
    Dr. Broun. Aye.
    The Clerk. Mr. Broun votes aye.
    Mr. Fleischmann?
    Mr. Fleischmann. Aye.
    The Clerk. Mr. Fleischmann votes aye.
    Mr. Hall?
    Chairman Hall. Aye.
    The Clerk. Mr. Hall votes aye.
    Mr. Miller?
    Mr. Miller. No.
    The Clerk. Mr. Miller votes no.
    Ms. Woolsey?
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no.
    Mr. Lujan?
    [No response.]
    The Clerk. Mr. Tonko?
    Mr. Tonko. No.
    The Clerk. Mr. Tonko votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. McNerney?
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no.
    Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no.
    Chairman Harris. Have all Members voted? Anyone wish to 
change their vote?
    Will the clerk report the vote?
    The Clerk. Mr. Chairman, seven Members vote aye and six 
Members vote no.
    Chairman Harris. The motion to table having been passed, 
the motion is laid on the table. I will----
    Mr. Miller. Mr. Chairman, I move that the Committee be in 
recess for a period of not less than one week to allow the 
gentleman from HBO to apply for press credentials and to allow 
ABC News and any other credentialed press organization to 
provide the overnight notice that they intend to film this 
hearing.
    Dr. Broun. Mr. Chairman?
    Chairman Harris. The gentleman from Georgia.
    Dr. Broun. I move to table the motion.
    Chairman Harris. There is a motion to table the motion. All 
in favor, say aye. All opposed? In the opinion of the chair, 
the ayes have it.
    Mr. Miller. Mr. Chairman, I ask for a recorded vote.
    Chairman Harris. A recorded vote is requested. The clerk 
will call the roll.
    The Clerk. Mr. Harris?
    Chairman Harris. Aye.
    The Clerk. Mr. Harris votes aye.
    Mr. Rohrabacher?
    [No response.]
    The Clerk. Mr. Bartlett?
    [No response.]
    The Clerk. Mr. Lucas?
    Mr. Lucas. Aye.
    The Clerk. Mr. Lucas votes aye.
    Mrs. Biggert?
    [No response.]
    The Clerk. Mr. Akin?
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes aye.
    Mr. Neugebauer?
    Mr. Neugebauer. Aye.
    The Clerk. Mr. Neugebauer votes aye.
    Mr. Broun?
    Dr. Broun. Aye.
    The Clerk. Mr. Broun votes aye.
    Mr. Fleischmann?
    Mr. Fleischmann. Aye.
    The Clerk. Mr. Fleischmann votes aye.
    Mr. Hall?
    Chairman Hall. Aye.
    The Clerk. Mr. Hall votes aye.
    Mr. Miller?
    Mr. Miller. No.
    The Clerk. Mr. Miller votes no.
    Ms. Woolsey?
    Ms. Woolsey. No.
    The Clerk. Ms. Woolsey votes no.
    Mr. Lujan?
    [No response.]
    The Clerk. Mr. Tonko?
    Mr. Tonko. No.
    The Clerk. Mr. Tonko votes no.
    Ms. Lofgren?
    Ms. Lofgren. No.
    The Clerk. Ms. Lofgren votes no.
    Mr. McNerney?
    Mr. McNerney. No.
    The Clerk. Mr. McNerney votes no.
    Ms. Johnson?
    Ms. Johnson. No.
    The Clerk. Ms. Johnson votes no.
    Chairman Harris. Any Members wish to change their vote? If 
no, the clerk will report the roll.
    The Clerk. Mr. Chairman, seven Members vote aye and six 
Members vote no.
    Chairman Harris. The majority voting to table the motion, 
the motion is tabled.
    Thank you very much, and sorry for the delay, but as the 
chairman of the full Committee has said, you know, if the 
minority wants a vote on something, they will get a vote on it 
each and every time.
    I want to welcome everyone to this morning's hearing to 
examine EPA's approach to groundwater research near Pavillion, 
Wyoming.
    The increased production and use of clean natural gas is 
the source of one of the few bright spots in our current 
economic climate. In 2010, the shale gas industry supported 
600,000 jobs, and a Federal Reserve economist estimates that 
lower natural gas prices enabled by increased production saved 
American consumers more than $16 billion in home energy costs 
last year, and of course, the price of natural gas has come 
down since last year. So it would be more than $16 billion in 
home energy costs saved each year from natural gas.
    Wyoming is a perfect case study. Tens of thousands of 
people are employed in oil and gas production, and royalties 
and taxes on that production delivered almost $2 billion going 
to state and local taxpayer coffers, more than $3,400 for every 
citizen in the state.
    However, in a remarkable display of arrogance and disregard 
for the plain facts, the President last week proclaimed his 
support for expanded shale gas production, while at the same 
time allowing every part of his Administration, from the EPA to 
the Department of the Interior to the CDC, to attack these 
practices through scientific innuendo and regulatory strait-
jacketing.
    In the past year, the Subcommittee has held numerous 
hearings on EPA's use and abuse of science. Time and again we 
have demonstrated that this agency is substituting outcome-
driven science for rigorous objective science. EPA's 
investigation of groundwater contamination in Pavillion appears 
to be yet another example of politics trumping policy and 
advocacy trumping science.
    The scientific method is a process characterized by the 
development of a hypothesis, creation of a rigorous experiment 
to test it, documentation of observations and objective 
analysis of results. Scientists in fact frequently believe that 
sharing the data is an important part of the scientific 
process. As far as I can see, EPA never managed to get even 
farther than the first step of most normal scientific 
investigation.
    EPA will no doubt emphasize today that this is a draft 
report that will soon undergo peer review. This fails to 
acknowledge, however, the impact this report has already had. 
The day after the draft report was released, the Governor of 
Delaware announced that it was the validation for his decision 
to vote against development of natural gas in the Delaware 
River Basin. This illustrates the power of EPA's press release 
science to drive public opinion and even critical decisions by 
policymakers.
    The key question before us today is, was the investigation 
conducted in a scientifically robust manner that justifies all 
this potential economic upheaval?
    I look forward to hearing from witnesses, but I am 
concerned about indications that EPA's approach in Wyoming has 
been poorly conducted, unnecessarily alarming, and fits within 
a pattern of an outcome-driven, regulate-for-any-excuse 
philosophy at the agency.
    Transparency is central to getting to the bottom of these 
scientific questions. Regardless that the President boasts that 
he leads the ``most transparent Administration in history'' and 
despite receiving multiple requests from state, media, and 
interested stakeholders, interestingly enough, it was not until 
late last night, the eve of this hearing, that EPA finally 
disclosed data essential to meaningfully evaluate their 
findings. Now, note that the original deadline for comment 
passed two weeks ago. Well, I am not sure how the EPA thought 
that people were going to make decisions on the adequacy of 
this study without the information that now the EPA I guess 
feels essential to make those kind of determinations.
    Now, while I am pleased that EPA posted 622 documents to 
its website last night, and I would offer that maybe they 
should follow the same rules the House has that you need 3 days 
of putting something out before you should actually consider 
it, clearly, that is not enough time for this Committee to take 
that into consideration in the hearing today. It is unfortunate 
that this transparency appears to only have been compelled by 
the calling of a Congressional oversight hearing, but then 
again, maybe that is the purpose of the 112th Congress.
    Compounding this problem is the complete failure to 
collaborate with experts and institutions with knowledge in the 
unique hydrogeology of this region. For example, the State of 
Wyoming, despite possessing decades of experience in 
groundwater assessments, was not consulted with about the most 
important aspects of this investigation, and we will hear from 
one of our witnesses today about that. The agency did not even 
consult with the U.S. Geological Survey before releasing the 
report, a sister government agency that has extensive 
understanding of aquifer complexity and geological 
characteristics in the region. Also concerning is EPA's 
apparent failures to follow its own laboratory protocols, 
Superfund site requirements, peer review handbook, information 
quality guidelines, as well as USGS recommendations for 
drilling and sampling monitoring wells.
    Hypocritically, these are behaviors and practices that the 
agency would not accept from any state or private sector entity 
conducting a comprehensive groundwater investigation.
    Finally, I'm afraid EPA's actions in Pavillion demonstrate 
a disturbing loss of perspective. The principal concern of this 
investigation should always have been the health and welfare of 
the people living near Pavillion, Wyoming. Unfortunately, in 
its single-minded pursuit of the hydraulic fracturing smoking 
gun, EPA appears to have lost focus on identifying the real 
causes of, and real solutions to, drinking water quality 
problems locally in Pavillion, Wyoming.
    I want to thank the witnesses for appearing before the 
Subcommittee and I look forward to a constructive discussion.
    [The prepared statement of Mr. Harris follows:]
               Prepared Statement of Chairman Andy Harris
    I want to welcome everyone to this morning's hearing to examine 
EPA's approach to ground water research near Pavillion, Wyoming.
    The increased production and use of clean natural gas is the source 
of one of the few bright spots in our current economic climate. In 
2010, the shale gas industry supported 600,000 jobs, and a Federal 
Reserve economist estimates that lower natural gas prices enabled by 
increased production saved American consumers more than $16 billion in 
home energy costs in 2010. Wyoming is a perfect case study--tens of 
thousands of people are employed in oil and gas production, and 
royalties and taxes on that production delivered almost $2 billion go 
to State and local taxpayer coffers--more than $3,400 for every citizen 
in the State.
    However, in a remarkable display of arrogance and disregard for the 
plain facts, the President last week proclaimed his support for 
expanded shale gas production, while at the same time allowing every 
part of his Administration--from the EPA to Interior to the CDC--to 
attack these practices through scientific innuendo and regulatory 
straight-jacketing.
    In the past year, this Subcommittee has held numerous hearings on 
EPA's use and abuse of science. Time and again we have demonstrated 
that this Agency is substituting outcome-driven science for rigorous 
objective science. EPA's investigation of groundwater contamination in 
Pavillion appears to be yet another example of politics trumping policy 
and advocacy trumping science.
    The scientific method is a process characterized by the development 
of a hypothesis, creation of a rigorous experiment to test it, 
documentation of observations and objective analysis of results. As far 
as I can see, EPA never managed to get farther than the first step.
    EPA will no doubt emphasize today that this is a draft report that 
will soon undergo peer review. This fails to acknowledge, however, the 
impact this report has already had. The day after the draft report was 
released, the Governor of Delaware announced that it was the validation 
for his decision to vote against development of natural gas in Delaware 
River Basin. This illustrates the power of EPA's ``press release 
science'' to drive public opinion and even critical decisions by 
policymakers.
    The key question before us today is, was the investigation 
conducted in a scientifically robust manner that justifies all this 
upheaval? I look forward to hearing from witnesses, but am concerned 
about indications that EPA's approach in Wyoming has been poorly 
conducted, unnecessarily alarming, and fits within a pattern of an 
outcome-driven, ``regulate-for-any-excuse'' philosophy at the Agency.
    Transparency is central to getting to the bottom of these 
scientific questions. Regardless that the President boasts that he 
leads the ``most transparent Administration in history'' and despite 
receiving multiple requests from state, media, and interested 
stakeholders, it was not until late last night, that EPA finally 
disclosed data essential to meaningfully evaluate their findings. While 
I am pleased that EPA posted 622 documents to its website last night, 
it is unfortunate that this transparency appears to only have been 
compelled by the calling of a Congressional oversight hearing.
    Compounding this problem is the complete failure to collaborate 
with experts and institutions with knowledge in the unique hydrogeology 
of this region. For example, the state of Wyoming, despite possessing 
decades of experience in ground water assessments, was not consulted 
with about the most important aspects of this investigation. The Agency 
did not even consult with the U.S. Geological Survey before releasing 
the report, a sister agency that has extensive understanding of aquifer 
complexity and geological characteristics
    Also concerning is EPA's apparent failures to follow its own 
laboratory protocols, Superfund site requirements, peer review 
handbook, information quality guidelines, as well as USGS 
recommendations for drilling and sampling monitoring wells. 
Hypocritically, these are behaviors and practices that the Agency would 
not accept from any state or private sector entity conducting a 
comprehensive ground water investigation.
    Finally, I'm afraid EPA's actions in Pavillion demonstrate a 
disturbing loss of perspective. The principle concern of this 
investigation should be the health and welfare of the people living 
near Pavillion, WY. Unfortunately, in its single-minded pursuit of the 
hydraulic fracturing smoking gun, EPA appears to have lost focus on 
identifying the real causes of, and real solutions to, drinking water 
quality problems in Pavillion.
    I want to thank the witnesses for appearing before the Subcommittee 
and I look forward to a constructive discussion.

    Chairman Harris. The Chair now recognizes Mr. Miller for 
five minutes of an opening statement.
    Mr. Miller. Thank you, Chairman Harris.
    The stated purpose of this hearing is to examine the 
methodology, the quality assurance, the peer review process and 
the like of an EPA study that links hydraulic fracturing, or 
fracking, and groundwater contamination near Pavillion, 
Wyoming.
    The principal criticism of the EPA is that the EPA's 
procedures have lacked transparency. EPA conducted the study in 
response to requests by citizens in the area. After fracking 
operations began there, they began to suffer headaches, sore 
throat, nausea, sinus problems and other symptoms that are 
known to be associated with the contaminants found in 
Pavillion's drinking water supply by the EPA study. EPA--it is 
a draft report that is the product of three years of research. 
The report is subject to a public comment period, followed by 
peer review. EPA has extended the public comment period for 45 
days beyond--from 45 days to 90 days at the request of 
industry. Public comments are due by March 12, 2012. EPA is now 
soliciting also nominations for disinterested experts to serve 
as peer reviewers, real scientists, not members of the Science 
Committee, real scientists. Once selected, the peer review 
panel will have 30 days to complete their work. In other words, 
the Pavillion study is a work in progress and all the 
criticisms we will hear today are a part of the public comment 
and part of the peer review process.
    The Pavillion study does not call for any regulation of 
fracking. Their study is part of risk assessment, not risk 
management. Risk assessment informs risk management. Once we 
know the risks, EPA will then weigh of the economic benefits 
and the potential public health consequences of fracking to 
determine what safeguards, if any, are appropriate to develop 
needed natural gas resources while protecting the environment 
and public health.
    Although the industry and their political allies dismiss 
the concerns about fracking as uninformed hysteria, their 
refusal to provide basic information about the operations, 
their operations and their efforts to hinder independent 
scientific research like the Pavillion study cannot be 
reassuring to citizens living near fracking operations. The 
industry has refused to disclose the chemicals they inject into 
the earth, claiming that the information is proprietary, their 
``secret sauce.'' But the draft Pavillion study is not the only 
study to find groundwater contamination, and at least one 
instance of surface water contamination, near fracking 
operations by chemicals not ordinarily found in nature and 
known to be part of the secret sauce. Some of the chemicals are 
known carcinogens.
    In short, the public concern about fracking seems very 
reasonable. The question is not whether we are pro-drilling or 
anti-drilling. The question is whether we will drill with our 
eyes open. The public wants to know if fracking is safe, and 
they are entitled to know. But the industry and their political 
allies just say, in effect, move along, there is nothing to see 
here.
    The integrity of scientific research at EPA is properly the 
subject of this Subcommittee's interest, although none of the 
Republican witnesses today appear to satisfy the requirements 
of disinterested expertise to serve as peer reviewers. With no 
disinterested scientists as witnesses, a reasonable question is 
whether this hearing is really about the science, the integrity 
of the science, or if it is just a big wink and nod to the 
industry that the majority is on their side no matter what.
    I yield back the balance of my time.
    [The prepared statement of Mr. Miller follows:]
            Prepared Statement of Ranking Member Brad Miller
Thank you Chairman Harris

    The stated purpose of this hearing is to examine the methodology, 
quality assurance, the peer review process and the like of an EPA study 
that links hydraulic fracturing, or ``fracking,'' and groundwater 
contamination near Pavillion, Wyoming. EPA conducted the study in 
response to requests by citizens in the area. The draft report is the 
product of three years of research. The report is subject to a public 
comment period, followed by a peer review. EPA has extended the public 
comment period from 45 days to 90 days at the request of industry. 
Public comments are due by March 12, 2012. EPA is also now soliciting 
nominations for disinterested experts to serve as peer reviewers. Once 
selected, the peer review panel will have thirty days to complete their 
work.

    In other words, the Pavillion study is a work in progress.

    The Pavillion study does not call for any regulation of fracking. 
The study is part of ``risk assessment,'' not ``risk management.'' Risk 
assessment informs risk management. Once we know the risks, EPA will 
then weigh of the economic benefits and the potential public health 
consequences of fracking to determine what safeguards, if any, are 
appropriate to develop needed natural gas resources while protecting 
the environment and public health.

    Although the industry and their political allies dismiss concerns 
about fracking as uninformed hysteria, their refusal to provide basic 
information about their operations and their efforts to hinder 
independent scientific research like the Pavillion study cannot be 
reassuring to citizens living near fracking operation. The industry has 
refused to disclose the chemicals they inject into the earth, claiming 
that the information is proprietary, their ``secret sauce.'' But the 
draft Pavillion study is not the only study to find ground water 
contamination, and at least one instance of surface water 
contamination, near fracking operations by chemicals not ordinarily 
found in nature and known to be part of the secret sauce. Some of the 
chemicals are known carcinogens.

    In short, the public concern about fracking seems very reasonable.

    The question is not whether we are ``pro-drilling'' or ``anti-
drilling.'' The question is whether we will drill with our eyes open. 
The public wants to know if fracking is safe, and they're entitled to 
know. But the industry and their political allies just say, in effect, 
``move along, there's nothing to see here.''

    The integrity of scientific research at EPA is properly the subject 
of this Subcommittee's interest, although none of the Republican 
witnesses today appear to satisfy the requirements of disinterested 
expertise to serve as peer reviewers. With no disinterested scientists 
as witnesses, a reasonable question is whether this hearing is really 
just a big wink and nod to the industry that the majority is on their 
side no matter what.

    Chairman Harris. Thank you very much, Mr. Miller.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    I would like to introduce our witness panel at this time, 
and again, I am going to apologize to the witnesses for the 
delay we had at the beginning of the hearing, but again, you 
know, one of our principles is, we make certain that, you know, 
minority or majority, if someone makes a motion, they are going 
to get a vote.
    Our first witness today is Mr. James B. Martin. Mr. Martin 
is the Regional Administrator for Region 8 at the Environmental 
Protection Agency. He has worked in the environmental field for 
nearly 30 years. Prior to his career in public service, Mr. 
Martin managed Western Resource Advocates, a nonprofit focused 
on energy, public lands and water issues.
    Our next witness will be Mr. Tom Doll. Mr. Doll is the 
State Oil and Gas Supervisor at the Wyoming Oil and Gas 
Conservation Commission. Prior to becoming supervisor, he had 
38 years' experience in petroleum engineering and management, 
primarily in Wyoming and the northern Rockies. He is Wyoming's 
official representative to the Interstate Oil and Gas Compact 
Commission.
    Our third witness is Ms. Kathleen Sgamma. Ms. Sgamma is the 
Vice President of Government and Public Affairs at the Western 
Energy Alliance. She handles federal legislative, public lands, 
environmental and regulatory issues for companies involved in 
all aspects of exploration and production of oil and natural 
gas in the West.
    Our final witness is Dr. Bernard Goldstein. Dr. Goldstein 
is a Professor and Dean Emeritus at the Graduate School of 
Public Health at the University of Pittsburgh. He is a 
physician, board certified in internal medicine, hematology and 
toxicology. He also served as Assistant Administrator for EPA's 
Office of Research and Development from 1983 to 1985.
    I want to thank you all for appearing before the 
Subcommittee today, and again, thank you very much for your 
patience in waiting to testify.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which the Members of the Committee 
will have five minutes each to ask question.
    I now recognize our first witness, Mr. James Martin from 
the Environmental Protection Agency.

     STATEMENT OF MR. JIM MARTIN, REGION 8 ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Martin. Good morning, Chairman Harris Ranking Member 
Miller and other Members of the Committee. My name is Jim 
Martin, and I am the Regional Administrator for the 
Environmental Protection Agency's Region 8. That is the region 
that encompasses the Dakotas, Montana, Utah, Wyoming and 
Colorado. I am here today to talk with you about the agency's 
groundwater investigation at Pavillion, Wyoming.
    In the spring of 2008, EPA staff at our regional office 
were contacted by a group of people from the rural community of 
Pavillion in central Wyoming. They had noticed a change in 
their drinking water, in its odor, its taste and its color, and 
wanted to know not only what had happened but whether their 
water was safe to drink.
    While the state had directed the operating company to test 
the water, the results were inconclusive and left the residents 
without those critical answers. After conferring with our state 
colleagues and with the Northern Arapahoe and Eastern Shoshone 
Tribes of the Wind River Indian Reservation, EPA agreed in 2008 
to conduct additional sampling.
    To ensure as thorough an approach as possible, we developed 
a plan that included a broad list of compounds at the lowest 
levels of detection. We conducted our initial round of sampling 
in March 2009. We looked at both domestic drinking water wells 
and at two of the wells that serve the town Pavillion just west 
of the Pavillion oil and gas field. We found that roughly a 
third of the domestic wells had detections of organic compounds 
including methane, total petroleum hydrocarbons and some other 
organics the lab was able to tentatively identify but not 
quantify.
    Our phase 2 sampling was again planned in collaboration 
with the tribes, the state and the operating company, in this 
case, Encana. Our goal was to better quantify the chemicals 
present in order to assess potential health risks and to 
identify potential sources. Again, we considered a wide range 
of potential sources in developing the sampling plan. The 
sampling plan--the sampling, rather, occurred in January of 
2010 but in a more refined area based on the results from our 
phase 1 sampling. Again, we confirmed that organic chemicals of 
concern were present in 16 of the 17 domestic well samples 
including methane and petroleum hydrocarbons. We also sampled 
shallow pit monitoring wells and found very high concentrations 
of several contaminants.
    We shared our data with the Agency for Toxic Substances and 
Disease Registry. Based both on those data and on a set of 
uncertainties, that agency recommended that residents use an 
alternative source of water for drinking and cooking and that 
they ventilate their bathrooms while running their showers. 
However, we concluded that without future data, further data, 
rather, we still could not identify potential sources of the 
contamination.
    Another round of consultation with stakeholders occurred 
and we then decided to construct two deep monitoring wells. 
Those wells were constructed in the summer of 2007--2010, 
rather--and we collected samples from both wells on two 
separate occasions. Throughout, we applied the most stringent 
quality assurance protocols used by the agency. Those results 
showed very high alkalinity at deeper levels of the aquifer, 
petroleum-related organic compounds including benzene at 50 
times the maximum contamination level set by the Safe Drinking 
Water Act, and a number of synthetic organic compounds that do 
not occur naturally in groundwater. EPA's technical team 
evaluated these data with great care and weighed a range of 
possible explanations that might fit the entire data set as 
well as the regional geology and the fuel production practices. 
Based upon multiple lines of reasoning, we have tentatively 
concluded that the drinking water aquifer contains compounds 
likely associated with gas production activities including 
hydraulic fracturing.
    We make clear in the draft report that our analysis is 
limited to the particular geologic conditions in the Pavillion 
gas field and should not be assumed to apply to fracturing in 
other geologic settings. It should be noted that fracturing in 
Pavillion is taking place in and below the drinking water 
aquifer and in close proximity to drinking water wells.
    As we were moving toward completion of the report, we asked 
three external scientists to review the sampling and analysis 
as a sort of final check-in. We also broadly shared the data 
and then conducted a series of meetings with the state, the 
tribes, BLM and BIA and the company to gather their concerns 
and assessments. In late 2011, we released the draft report. We 
provided notice of our intention to subject this report to a 
formal external peer review by scientists and engineers 
unaffiliated with EPA. Contemporaneously, we sought public 
comment on the draft report and have since extended the 
deadline for comment to March 12.
    To support this review, we have released an unprecedented 
amount of raw data, qualify assurance documentation and other 
supporting information. In addition, we are working with the 
state, the tribes and others to develop a plan for additional 
investigation at the site.
    In conclusion, I believe EPA acted carefully, thoughtfully 
and transparently in responding to the concerns raised by local 
residents in 2008. We have applied the highest standards of 
scientific rigor and have operated in the spirit of 
transparency and collaboration. There is more work to be done, 
and collaboration and transparency will continue to be the 
hallmarks of our investigation.
    With that, I yield the floor, Mr. Chairman.
    [The prepared statement of Mr. Martin follows:]
     Prepared Statement of Mr. Jim Martin, Region 8 Administrator, 
                    Environmental Protection Agency



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Harris. Thank you very much.
    I now recognize our second witness, Mr. Tom Doll from the 
Wyoming Oil and Gas Conservation Commission.

                 STATEMENT OF MR. THOMAS DOLL,

                 STATE OIL AND GAS SUPERVISOR,

          WYOMING OIL AND GAS CONSERVATION COMMISSION

    Mr. Doll. Thank you. I am here this morning as a 
representative of the Honorable Governor of the State of 
Wyoming, Matthew H. Mead, and provide the following testimony 
regarding the EPA's groundwater science at Pavillion, Wyoming.
    The Pavillion Wind River formation natural gas field was 
discovered in 1960. By 2006, full field development was 
completed. This greater Pavillion gas field has 168 wells. 
Currently, there are 78 wells on tribal and 58 wells on private 
minerals. The last wells in this greater Pavillion gas field 
area that were hydraulically fractured occurred in 2007.
    In 2008, EPA reacted to complaints from a few domestic well 
owners claiming taste and odor problems following hydraulic 
fracturing at nearby gas production wells. EPA conducted 
sampling and testing of 42 shallow domestic and stock water 
wells, and in August 2010, results of that testing was made 
public.
    EPA drilled two monitoring wells in the Pavillion natural 
gas field in the summer of 2010. Both monitoring wells were 
completed at depths considerably below that of the shallow 
water supply wells. EPA via email notified the Wyoming 
Department of Environmental Quality of the plan to drill the 
monitoring wells literally as the rig was moving in, so I would 
question whether that is consultation with the state or not.
    Sampling of the two monitoring wells occurred in October 
2010 and again in April of 2011. Data was made public in 
November followed by the Pavillion draft report on groundwater 
in December 2011.
    The complex geology of the Wind River formation in central 
Wyoming makes identification of potential contamination 
pathways difficult. The sands are discontinuous and are 
individual lenses within a shale matrix. Visual individual 
potato chips layered in a bowl. Some are in contact and most 
are not. The Wind River formation is a shallow aquifer and is 
also a deep natural gas reservoir.
    EPA's draft report is based on two monitoring well sampling 
events. EPA found a single detect of 2-butoxyethanol out of 
nine lab samples analyzed using an analytical method still 
under development. Actual sample values for organics are so 
low, they are measured in parts per billion. This chemical 
compound at the 12.7 parts per billion detected is acceptable 
for drinking water supplied from a public water system.
    The EPA review of material safety data sheets found 2-
butoxyethanol as a compound in foam additives used in hydraulic 
fracturing but ignored its use in other applications such as 
metal coatings and solvents. The EPA concluded that hydraulic 
fracturing caused groundwater contamination.
    Now I would like to focus on the natural gas wells in the 
immediate area of these two EPA monitoring wells. None of these 
natural gas wells have been hydraulically fractured since 2005. 
EPA's data is only applicable to the natural gas fields in 
central Wyoming. This fact is lost in the public reaction to 
the EPA announcement and a worldwide damnation of hydraulic 
fracturing has occurred. The report provides no data to show 
how these two EPA monitoring wells represent water supply wells 
used by anyone in the Pavillion natural gas field. Wyoming 
state agencies' technical questions have yet to be addressed, 
and I have been informed now that the new data has been 
released and posted on the EPA web page.
    The EPA report also ignores the ongoing public outreach 
investigation of natural gas well integrity and landowner-
identified sites. EPA has not addressed other possible surface 
pathways of groundwater contamination. Wyoming state agency 
scientists contend that the chemical compounds detected were 
introduced during the drilling, completion, testing and 
sampling of the EPA monitoring wells. Further well testing is 
required.
    Wyoming has historically regulated hydraulic fracturing. 
Since 2010, Wyoming is the only state to require chemical 
disclosure prior to the initiation of the treatment. Disclosure 
of the actual chemical compounds used is also required post 
treatment. This well information is public and is posted on the 
Oil and Gas Conservation Commission web page.
    In conclusion, the EPA Pavillion draft report contains 
poor-quality data and science. The State of Wyoming experts do 
not support the EPA's data or analysis, and recommends further 
testing before any conclusion of groundwater contamination by 
any source be made. The goal is for residents of Pavillion to 
have clean water and conclusive answers about the source of the 
area's groundwater problems. Additional short-term sampling and 
long-term science-based efforts are being planned by the State 
of Wyoming and the USGS for the Pavillion area.
    Thank you for providing this opportunity to address the 
Subcommittee regarding Pavillion, Wyoming.
    [The prepared statement of Mr. Doll follows:]
Prepared Statement of Mr. Tom Doll, State Oil & Gas Supervisor, Wyoming 
                   Oil & Gas Conservation Commission



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Harris. Thank you very much.
    I now recognize our third witness, Ms. Kathleen Sgamma from 
the Western Energy Alliance.

               STATEMENT OF MS. KATHLEEN SGAMMA,

         VICE PRESIDENT, GOVERNMENT AND PUBLIC AFFAIRS,

                    WESTERN ENERGY ALLIANCE

    Ms. Sgamma. Thank you, Mr. Chairman, Ranking Member Miller 
and Members of the Committee. Thanks for the opportunity today.
    Western Energy Alliance represents about 400 companies 
engaged in all aspects of environmentally responsible oil and 
gas development in Wyoming and across the West. There is no 
failsafe process, and accidents may happen with any human 
endeavor.
    One of the main roles of environmental regulation is to 
ensure that the risk is managed properly, that appropriate 
procedures are in place to prevent public exposure, and in the 
event of an accident, that problems are corrected.
    Oil and natural gas producers are held to high scientific 
standards to ensure operations are properly designed, executed 
and controlled. Because civil or criminal penalties can be 
levied on producers who fail to fulfill regulatory 
requirements, it is imperative that regulators are also held to 
high standards.
    Regulators must be required to show that sound science and 
correct procedures were followed when establishing regulations 
and when determining if a company failed to meet a regulatory 
standard. If sound science and accepted regulatory practices 
are not followed, findings cannot stand up in court and 
arbitrary regulatory practices sow uncertainty.
    As a democratic society, the legal culpability inherent in 
our regulatory system is not the only consideration. The court 
of public opinion is also important. Without public support, 
activities such as oil and natural gas development would not be 
possible.
    My industry struggles against outrageous information in the 
public arena that overstates our environmental impact and 
propagates blatantly false information about hydraulic 
fracturing. Every day we hear members of the media and 
unaccountable environmental groups make statements about 
supposedly thousands of cases of contamination. Never mind that 
EPA Administrator Lisa Jackson and most regulators from large 
oil and natural gas-producing states have felt compelled to 
issue statements about the lack of cases of contamination from 
fracking. Once misinformation gets out in the public, it takes 
on a life of its own and is almost impossible to correct. This 
misinformation has caused local communities and citizens to 
fear a process that is safe. The fear leads to development 
roadblocks, depriving state economies of tens of thousands of 
jobs and billions of dollars of economic activity.
    Furthermore, unfounded fears about fracking divert limited 
federal and state resources away from activities that truly 
pose a threat to underground sources of drinking water. The 
Groundwater Protection Council considers fracking low risk, 
especially compared to other threats such as agricultural 
runoff, septic systems, sewer lines and wastewater treatment 
sources.
    The public trusts EPA to follow the line and use sound 
science as the foundation of its regulatory work. When EPA 
releases a report stating that fracking may be the cause of 
contamination, the public expects that to be backed by science. 
However, in the case of the draft Pavillion report, EPA's own 
data contained within doesn't support the conclusions presented 
upfront. A conclusion with such broad implications should have 
first been tested through a scientific peer review of the work.
    We are left wondering why EPA would jump to conclusions. 
Why would EPA release the report without state input and 
scientific peer review? These are disturbing questions to ask 
about an agency that should have the public trust and points to 
the fact that EPA is also a political body, not a disinterested 
scientific institution.
    As this Committee knows, fundamental standards of science 
include objectivity, repeatability, transparency and peer 
review. It is hard to call something scientific if it doesn't 
include these basic elements, yet we have seen examples from 
EPA that do not. Industry is particularly concerned since 
Congress has charged EPA with conducting a scientific study of 
fracking. EPA's recent actions raise questions in our minds 
about the quality of the science for the broader fracking study 
as well.
    The Pavillion report and what we have observed so far in 
the fracking study cause great concern to industry as we see a 
lack of transparency, unscientific methods and failure to 
perform peer review. I ask this Committee to help ensure that 
the issues of scientific credibility are resolved. I believe in 
general that better oversight is needed of EPA science. There 
is an inherent given EPA's regulatory and compliance roles and 
its ability to conduct objective science. Given that conflict, 
it is especially important that EPA science be properly peer 
reviewed. Western Energy Alliance recommends that standards of 
EPA-conducted science be tightened.
    Fracking is vital to the supply of American energy. If we 
lose the public's confidence and cannot continue to develop oil 
and natural gas in the United States because of unfounded 
rumors and invalid science, America will deprive itself of 
significant job and economic growth and will continue to import 
energy from unfriendly countries.
    Thank you for your time.
    [The prepared statement of Ms. Sgamma follows:]
Prepared Statement of Ms. Kathleen Sgamma, Vice President, Government & 
                Public Affairs, Western Energy Alliance



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Harris. Thank you very much, and I recognize our 
fourth and final witness, Dr. Bernard Goldstein of the 
University of Pittsburgh Graduate School of Public Health. 
Doctor.

              STATEMENT OF DR. BERNARD GOLDSTEIN,

                  PROFESSOR AND DEAN EMERITUS,

   GRADUATE SCHOOL OF PUBLIC HEALTH, UNIVERSITY OF PITTSBURGH

    Mr. Goldstein. Good morning. Thank you for the opportunity 
to testify. I apologize but I will be showing slides. It is 
part of being a professor. I would lose my professorial 
appointment.
    My three major points are that there is--that the public is 
genuinely concerned about the potential health impacts and 
there is genuine reason for the concern and that there is 
almost no support for the research needed to respond to the 
public, and that lack of support is both shortsighted and 
counterproductive.
    There is a fair amount of public confusion, which I think 
is really important to put in context of this particular 
hearing. The public is hearing that hydro fracking is a new 
technology that now permits extraction. In our area of the 
country, it is the Marcellus shale. And oh, by the way, it has 
been around for decades so don't worry. It can't be both. 
Decades ago, hydro fracking was done with 50,000 gallons of 
water, straight shot down, vertical, no horizontal drilling. 
Now it is 5 to 8 million gallons. There is all these additional 
bells and whistles that have been added to it, and we are told, 
although there is a lot of secrecy, that the fracking chemicals 
have been changed.
    We are also confused about the fact that just as we are 
hearing here, there is no proof that hydro fracking has ever 
caused groundwater contamination. Well, that is a technical 
definition of hydro fracking which has to do with the release 
5,000 foot underground or 1,000 foot underground of these 
chemicals. It is not really what the public understands as 
hydro fracking, which is anything that happens with these 
chemicals from the time that the drill pad is leveled to 20 
years from now when we hope everybody goes away and everything 
is restored to where it was.
    So this confusion is very much behind causing even anger by 
folks. This is an analysis of the reasons given by those not in 
favor of Marcellus drilling, and you will see that health 
concerns are a large part of this. Part of the reason for 
concern is unnecessary secrecy. My example of how ludicrous 
this is comes from the Gulf oil spill. Secrecy about this 
particular component, this organic sulfonic acid salt at the 
bottom, this propriety drug, contributed greatly to the stress 
experienced by Gulf residents. It turns out that this secret 
ingredient is a commonly used over-the-counter stool softener 
we have often prescribed, and I can tell that at least one of 
us in this room has used. It is of no toxicological 
significance to humans. I don't know about the fish. But why do 
we keep this secret?
    One of my major concerns as a toxicologist as a physician 
is the mixture issue. We have lots of chemicals that are being 
used. They are continually changing. We don't know what is in 
there. I can't be responsive to someone who calls and says my 
kid has such and such problems, I am worried about this 
disease, because I don't really know what is being done there. 
And not only do we have this concern about the individual 
chemicals, there is this mixture issue but there is even a 
greater mixture issue having to do with the fracking fluids 
that return, the produce water, the flow-back water, which 
contain not only the residual fracking chemicals but also 
everything that has been brought up from underground. And we 
don't really know what is going to happen with these flow-back 
fluids.
    I can't in this brief presentation do more than list some 
of the potential health issues that should be addressed, and I 
must respectfully disagree with the distinguished Chair about 
the importance of index cases. In my experience, index cases 
are simply not very germane to environmental medicine.
    Let me cite our analysis of the Pennsylvania Department of 
Environmental Protection's data on violations by companies 
involved in Marcellus shale drilling. Some of these companies 
are to be commended. They have had no violations. Some should 
not be in business. And as long as that persists, we are going 
to have major problems.
    And finally, it is disappointing that despite the fact that 
the various advisory committees have been put together, this is 
the President, the Governor of Maryland, the Governor of 
Pennsylvania, that really look at health and welfare and are 
concerned about protection of public health, we have examined 
these three advisory committees, there are 52 members and there 
is nobody with any health background in any of these advisory 
committees. No physicians, nurses, toxicologists, risk 
assessors, etc.
    So let me conclude with what I think are three certainties 
of what are going to happen. First, there is going to be 
surprises. There already have been--bromides in water, 
earthquakes. There will be improved technology. Industry has to 
pay for their fracking chemicals. It is in their interest to 
recycle them. Industry should not be releasing the chemicals 
that come out in fact because they should be selling them. They 
want to sell them. But we found over these past 40 years that 
it requires a lot of oversight, a lot of rigorous oversight to 
make this happen. It won't happen by itself.
    And finally, there certainly will be adverse health impacts 
that are going to be reported in these various areas. They will 
be statistically significant. That doesn't mean they are 
causal. There is enough different diseases in different areas. 
People are going to wake up and said we have never had this 
much pancreatic cancer or autism or leukemia before those 
drilling, those wells were drilled, and at that point, to try 
to figure out in retrospect what is really going on is a little 
too late. It is cost-ineffective to do it then. We need to 
start doing it now if we are going to be able to get the 
greatest benefit we can, or in fact, the decisions will be made 
based upon litigation, not based upon science.
    Thank you.
    [The prepared statement of Mr. Goldstein follows:]
    Prepared Statement of Dr. Bernard Goldstein, Professor and Dean 
  Emeritus, Graduate School of Public Health, University of Pittsburgh



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Harris. Thank you very much, Doctor, and I 
sympathize with you because, you know, as an academician, 
whenever I would give a talk, I always gave it from slides. So 
then I get into the legislature and find you don't do that 
anymore. Thank you very much for your presentation.
    Now we will begin, reminding Members that Committee rules 
limit questioning to five minutes. The Chair at this point will 
open the round of questions and I recognize myself for the 
first five minutes.
    Thank you very much, Mr. Martin, for being here. I 
understand Dr. Anastas couldn't, so I appreciate you being 
here. I want to ask you, though, and just confirm for me a 
couple of just facts. First of all, is the only chemical that 
was found in those wells that was above drinking water 
standards for a public well was benzene. Is that correct? In 
the two monitoring wells, the two deep monitoring wells.
    Mr. Martin. I am sorry, Mr. Chairman, but could you repeat 
your question?
    Chairman Harris. Sure. What substances were found at 
concentrations above the drinking water levels that are 
accepted for public water supplies?
    Mr. Martin. Benzene was the most notable example of what 
we----
    Chairman Harris. Which other ones? Could you list them?
    Mr. Martin. That is the only one, I believe.
    Chairman Harris. The only one. Okay. So it was the only 
one. And it is true, it was only found in one of the two 
monitoring wells. Isn't that right?
    Mr. Martin. No, I don't believe that is correct.
    Chairman Harris. I suggest you look at your draft report, 
which suggests that monitoring well #1 did not have measurable 
amounts and monitoring well #2 had them.
    Mr. Martin. I don't have the report in front of me, Mr. 
Chairman.
    Chairman Harris. Well, I do. I suggest you also check, you 
had two measurements separated by six months. Is that correct?
    Mr. Martin. Yes.
    Chairman Harris. And isn't it true that the benzene level 
was one-half the original reported amount when you went in the 
second sampling in well #2?
    Mr. Martin. Mr. Chairman, you have the data before you; I 
don't.
    Chairman Harris. Well, this is your report. You signed on 
to this--you approved this press release, didn't you?
    Mr. Martin. I don't know to what----
    Chairman Harris. This is the press release from October 
8th--I am sorry--from December 8th releasing the draft study, 
the company that released the draft study. You have read the 
report. I think you have read the report.
    Mr. Martin. Multiple times, Mr. Chairman.
    Chairman Harris. Very good. Well, I suggest you look at 
that table--so what we have done here is, we have said that we 
only have one contaminant. It was only found in one well, and 
oh, by the way, there is a twofold difference in the 
concentration in that well and it fell from the time of the 
first measurement to the time of the second measurement. Is it 
true, because there has been testimony in front of this 
Committee, there have been 1.2 million applications of hydro 
fracturing in the United States and there still has not been a 
documented contamination of drinking water above the levels 
acceptable for a public system. Is that correct? There still is 
no documented case?
    Mr. Martin. That is information to which I can't testify, 
Mr. Chairman.
    Chairman Harris. Okay. So you certainly can't refute the 
testimony in front of this Committee previously on that?
    Mr. Martin. I can't.
    Chairman Harris. I know why you can't because there still 
isn't, and although the EPA might want to suggest that in this 
press release, I think that it may not be true.
    Now, you state in your testimony that ``Our analysis is 
limited to the particular geologic conditions in the Pavillion 
gas field and should not be assumed to apply to fracturing in 
other geological settings.'' Now, that is an extension of what 
you actually had in the press release because the press release 
didn't actually say and oh, by the way, don't extrapolate this, 
don't apply this to fracturing in other settings, and you also 
went on to say in testimony that these wells had ``production 
conditions different from those in many other parts of the 
country.'' And having read the report, and having the testimony 
of a geologist, of someone with expert in the local geology, I 
can understand that. But I want to be clear. Regardless of what 
the peer review process determines about this report's findings 
and validities and all the rest, does the EPA think that the 
results of this investigation can be reasonably extrapolated to 
modern hydraulic fracturing being used, for example, in the 
Marcellus shale, which of course runs through my state?
    Mr. Martin. Mr. Chairman, the circumstances, the 
conditions, the geologic conditions that exist with the 
Marcellus shale are significantly different. In the Pavillion 
case, we were looking at production that occurred in an 
underground source of drinking water, an aquifer, at depths as 
shallow as 1,200 feet where the most--the deepest domestic 
drinking water well was 800 feet. I believe in the Marcellus 
shale, you are looking at production occurring from 5,000 feet 
below ground, so they are very different.
    Chairman Harris. So you believe that these results really 
can't be reasonably extrapolated to the Marcellus shale?
    Mr. Martin. We have not proposed to do anything of that 
sort, Mr. Chairman.
    Chairman Harris. Good. In light of that clarification, I 
want to give you an opportunity to comment on recent statements 
regarding the conclusion of EPA's draft report. After the 
issuance of EPA's Pavillion draft report, the Governor of 
Delaware said that this report validates his plans to veto gas 
drilling in the four-state Delaware basin. Was the Governor 
wrong to extrapolate your results to the Delaware River basin?
    Mr. Martin. I have never met the Governor. I don't know him 
and I don't know the circumstances or the context and I am not 
about to tell him he was right or wrong, Mr. Chairman.
    Chairman Harris. Well, I am just going to ask you based on 
your knowledge of the potential uniqueness of the geology in 
Pavillion, Wyoming, is it your impression that maybe the 
Governor should have thought a little longer about that or 
maybe looked into a little different or actually taken into 
account the geology of the Delaware River basin before coming 
to that conclusion? Because it sounds like that's what the EPA 
suggests, that you have to take local geology into account.
    Mr. Martin. I am not in a position, Mr. Chairman, to 
criticize any governor.
    Chairman Harris. Well, your former colleagues at the 
Environmental Defense Fund called the draft Pavillion report a 
``wakeup call on the need for stronger regulation nationally on 
hydraulic fracturing.'' Now, are your former associates wrong 
to interpret the results in this way, broadly extrapolated to 
hydraulic fracturing anywhere in any geologic formation?
    Mr. Martin. I haven't talked with them, Mr. Chairman. I 
haven't seen their comments in context. I am not in a position 
to criticize anyone here other than to give you a better 
understanding of what we did at the Pavillion site.
    Chairman Harris. Has your office had any communication with 
them at all?
    Mr. Martin. Sir, there are 800 people in my office. I can't 
speak to whether anyone had had any----
    Chairman Harris. Would the FOIA request that has been made 
regarding this information, would that be part of that FOIA 
request? Because the FOIA request is solicited email responses. 
Would we find that information out there if you are unable to 
say whether you have had any communication with them?
    Mr. Martin. I can tell you definitively, I have not.
    Chairman Harris. By any means?
    Mr. Martin. Not about this particular----
    Chairman Harris. Thank you very much.
    Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Martin, you said, or Dr. Harris asked if it was true 
that benzene was the only chemical that was above acceptable 
levels. Is benzene a known carcinogen? It is, is it not?
    Mr. Martin. It is, Congressman.
    Mr. Miller. Okay. And I think in your testimony earlier you 
said that it was at 50 times the acceptable level?
    Mr. Miller. I did.
    Mr. Miller. So if it fell to half what it was earlier, it 
was still 25 times acceptable level. Is that correct?
    Mr. Martin. I believe your math would be correct, sir.
    Mr. Miller. All right. Ms. Sgamma, from your biography, the 
biographical information provided to the Committee, your title 
is Vice President of Government and Public Affairs. That sounds 
like the title given to a lobbyist. Is that correct?
    Ms. Sgamma. That is my title, yes.
    Mr. Miller. All right. In looking at your educational 
background and your experience, it appears to be in information 
technology, computer stuff. The federal regs have a list of the 
scientific fields that are considered experts for purposes of 
hydraulic fracturing. IT is not one of them, and it appears 
that you have no background in geology or toxicology or 
hydrology or public health or anything else that is one of the 
fields of expertise that are touched by hydraulic fracturing. 
Is that correct?
    Ms. Sgamma. I am not applying to be on the peer review of 
any of this report but I do--I am informed by my members, who 
do indeed possess those degrees and that expertise.
    Mr. Miller. All right. Of course, they are not here to 
answer questions.
    Mr. Martin, we have heard that the contamination could have 
been caused by something else, by pesticides, by septic 
systems, by fuel stations, leahing underground storage tanks 
and that those were not considered. Did the EPA in fact 
consider and test for those other explanations?
    Mr. Martin. Congressman, we did. In fact, we designed the 
first two rounds of testing to look very broadly at a wide 
range of contaminants that might be present. We have been able 
to rule out pesticides and other potential sources including 
nitrates from agriculture or from dysfunctional septic systems. 
We have looked hard for a set of sources. We eliminated none 
going in. We have eliminated several in the process.
    Mr. Miller. All right. There has been some subject--some--
well, Dr. Goldstein in his testimony said part of the public's 
concern is the lack of disclosure of what the chemicals going 
into the ground are. I understand from Mr. Doll--Dole?
    Mr. Doll. Doll.
    Mr. Miller. Doll, that they are now disclosing going 
forward but how would it be helpful to you--and I am not sure 
how further that disclosure is--but how would it be helpful to 
the EPA or anyone else studying groundwater contamination to 
know what chemicals were being used in fracking? Would it be 
helpful? Mr. Martin?
    Mr. Martin. Congressman, I believe it would be very 
helpful. We have actually been able to get from the company 
that operates this field MSDS sheets for some of the materials 
used in fracking, and that has been tremendously helpful.
    Mr. Miller. Okay. Well, how--you have been--ironically, you 
have been criticized by the Members of this Committee for a 
lack of transparency, but how would the transparency of EPA's 
work be compared to the transparency of the company doing the 
drilling, Encana, as well as the State of Wyoming?
    Mr. Martin. Congressman, we have worked closely and well 
with Encana on a number of issues but we are still awaiting 
responses to a number of questions we propounded to them 
including the results of the split sampling that they took 
during several phases of this investigation.
    Mr. Miller. Dr. Goldstein, I understand that a conference 
recently of medical experts recently urged that the rapid 
expansion of fracking for natural gas be, the term was paused, 
so that there could be research to determine the potential 
harmful effects on human health. Dr. Goldstein, it appears that 
you do have both the disinterest and the expertise to qualify 
as an expert in this area. What do you think of the idea of 
pausing, at least slowing the expansion, which may happen 
anyway for economic reasons or appears to be happening, anyway, 
for economic reasons, but pausing the expansion of fracking so 
that the scientific community can assess the risk of the 
technology?
    Mr. Goldstein. I strongly support that, sir. The issue to 
me is if we have in Pennsylvania 20 years of Marcellus shale 
gas, we are going to get all of that gas. I see no alternative 
to the fact that we will drill all that gas. That is the only 
reasonable scenario. So what is the rush? It is not going 
anywhere. In the Gulf, our Deepwater Horizon commission said 
that we ought to be drilling in part because otherwise the 
Cubans or the Venezuelans or the Chinese might get that oil, 
but unless the Canadians can figure out how to frack underneath 
Lake Erie, that is staying with us and we are going to get it. 
We might as well optimize how we get it in such a way that we 
don't interfere with public health or the environment.
    Mr. Miller. Mr. Chairman, my time is expired, and I know 
how persnickety this Subcommittee is about the rules.
    Chairman Harris. Well, thank you very much, Mr. Miller. We 
like to play by the rules. That is what we do.
    The chair now recognizes the chairman of the Committee, Mr. 
Hall, for five minutes.
    Chairman Hall. I have a question for Mr. Doll. On January 
19, 2012, EPA Administrator Lisa Jackson sent a letter to 
Governor Mead responding to his concern about the amount of 
sampling conducted during the course of his investigation. Are 
you aware of that?
    Mr. Doll. Yes, sir, I am.
    Chairman Hall. And in it, Administrator Jackson states ``We 
have conducted four phases of sampling, each of which was 
designed in consultation with the state.'' Is that correct?
    Mr. Doll. Sir, that is what she states in her letter, yes.
    Chairman Hall. Did this consultation take place? You have 
not been transparent so far as I have listened to you here 
today. Can you give me an answer to that?
    Mr. Doll. Are you asking me the question, sir?
    Chairman Hall. No, I am talking now to Mr. Martin.
    Mr. Martin. I am sorry, Mr. Chairman. We consulted with a 
number of parties and certainly including the state at each 
phase of this process including the development of sampling 
plans for the first two phases, the design of the well, the 
monitoring wells that were constructed in the summer of 2010.
    Chairman Hall. I will get back to Mr. Doll. Did this 
consultation take place?
    Mr. Doll. The way I understand it, sir, from the Department 
of Environmental Quality, they were involved in the initial 
sampling that occurred in the 2008 time frame.
    Chairman Hall. What do you mean, involved in?
    Mr. Doll. They were notified and were aware that the 
sampling events were going to occur in 2009 and 2010. They were 
also informed at the time because it wasn't with my agency the 
speculation that I can address only as speculation is that they 
were informed that the monitoring wells were going to be 
drilled about the time that the drilling rig was moving to the 
site.
    Chairman Hall. How involved was the state in the 
development of sampling and monitoring those plans?
    Mr. Doll. I am not aware that we were involved at all, sir.
    Chairman Hall. What would you have recommended to EPA if 
you had been consulted? You were not consulted, were you?
    Mr. Doll. No, sir, we were not. The Oil and Gas 
Conservation Commission was not.
    Chairman Hall. Even though they contend that they were and 
they have so testified under oath that they were?
    Mr. Doll. They may have contacted by email the head of the 
Department of Environmental Quality but not the Oil and Gas 
Conservation Commission.
    Chairman Hall. Well, they might have sent them an email. 
That is not consulting, that is their own arrogant approach to 
it. I think they just sent them an email. They didn't consult 
with them. You are not testifying that they consulted with 
them, are you?
    Mr. Doll. No, sir, I am not.
    Chairman Hall. Then since the states are responsible for 
regulating drilling protocols, did EPA apply for a permit or 
submit a drilling plan to the State of Wyoming so far as you 
know?
    Mr. Doll. Not as far as I know, sir.
    Chairman Hall. Okay. Do you have any idea, Mr. Martin, why 
would the EPA Administrator claim that her agency consulted 
with the state on designing a sampling plan if it had not 
occurred?
    Mr. Martin. Mr. Chairman, Mr. Doll and I----
    Chairman Hall. You haven't known when they asked you other 
questions about that.
    Mr. Martin. I am sorry, sir?
    Chairman Hall. You have not been able to testify. You 
wouldn't cross the Governor or anybody if you had information 
in front of you.
    Mr. Martin. I think----
    Chairman Hall. You are under oath now. You know that, don't 
you?
    Mr. Martin. I am, Mr. Chairman. I guess I am. I believe we 
conducted significantly greater consultation than Mr. Doll 
might be aware of. Early in the process, the Department of 
Environmental Quality for the State of Wyoming was designated 
as the lead agency for the State of Wyoming as part of this 
process. We consulted with them. We actually consulted with 
Encana in designing the monitoring wells that were constructed 
in 2010. We have significantly greater consultation with the 
state than perhaps Mr. Doll is aware of.
    Chairman Hall. I understood that EPA will be selecting a 
panel of outside peer reviewers to take a look at its work. Mr. 
Martin, can you assure me that at least one person recommended 
by the State of Wyoming will be named to this peer review 
panel?
    Mr. Martin. I believe, Mr. Chairman, that the Administrator 
has told the Governor that she expects that there will be at 
least one expert who meets all of the other qualifications for 
membership in an external peer review process, that there will 
be at least one person from Wyoming on the peer review panel.
    Chairman Hall. The Pavillion case that we are examining 
today reflects a troubling effect by EPA to build a case for 
regulating and even shutting down unconventional oil and gas 
production around the country and they are doing that all over 
the country, even out in Wyoming, and the EPA has it handed to 
them time after time by this Committee. I am sorry to say the 
liberal press hasn't printed it properly but they always say 
they need more investigation. But we have had people who have 
had years and years of experience and been here under oath that 
have testified there is not any way in the world that fracking 
could have affected the drinking water in the examples that 
were given to them. Do you understand that?
    Mr. Martin. Yes, sir. Is it a question or----
    Chairman Hall. It is important to recognize what EPA is 
doing in Wyoming is not isolated. They are going after fracking 
everywhere they can. I guess that is what I am trying to tell 
you, that they have been through most of the jurisdictions here 
and have absolutely had no proof, nothing testified under oath 
that would imply that fracking had damaged drinking water, not 
that I know of.
    Chairman Harris. Thank you very much.
    Chairman Hall. I would like to--let me enter in two 
documents into the record that raise questions about EPA's 
commitment to getting the science right on hydraulic 
fracturing.
    Chairman Harris. Without objection.
    [The information appears in Appendix II:]
    Chairman Harris. Thank you very much, Mr. Chairman.
    I recognize the gentleman from New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair.
    Mr. Doll, in reviewing your testimony, there at least 
appear to me to be some inconsistencies so that I would ask 
that perhaps you would clarify some points for me if you could, 
please. I will run through a few of these and then would like 
your comment. You indicate that the residents of Pavillion 
brought their concerns about water quality to the state in 
2005, on page two of your testimony, and the state's 
investigation showed no impact from oil and gas development. 
But the drilling company entered into a voluntary remediation 
program in 2008 with the state, and I quote ``because 
hydrocarbon impacts were discovered in groundwater.'' That is 
from section 2.2 of public participation plan of Pavillion, 
Wyoming, dated April 2008. This conclusion apparently was based 
on a study done by Wyoming's Department of Environmental 
Quality. So could you reconcile that for me?
    Mr. Doll. Yes, sir, I will. The work that was done in 
Pavillion by the Department of Environmental Quality goes back 
even before 2005. These are old--this is an old oil and gas 
field area. There were some pits that were identified and 
cleaned up and further testing was done in that 2005 to 2008 
time frame, and I believe that was why those pits were 
identified and put into the voluntary remediation program. 
There were over 60 pits reviewed, and then several, I think 
three or four, I am not sure, because that is the Department of 
Environmental Quality, but I think three or four were put into 
this voluntary remediation program. We have a group of 
individuals that are involved in a working group looking at 
these pits and sites that were identified by landowners as 
concern, and reviewed that data again and found one other area 
that upon testing found that needed to be added to the 
voluntary remediation program. So that is hydrocarbons that 
were probably hauled in. This gas that is being produced in the 
Wind River formation is a dry gas with very little liquids 
associated with it in terms of water or any kind of petroleum 
hydrocarbon.
    Mr. Tonko. And on page 5 of your testimony, you state that 
other possible sources of groundwater contamination remain 
unstudied. But notes from the April 2011 meeting indicate that 
they were researched by the pits working group which stated 
other potential sources including Greg Oberley of EPA said a 
records search into septic systems, dumps, oil and chemical 
storage sites is a work in process. And that Kathy Brown of DEQ 
reported that a DEQ database search did not identify any 
potential sources but she will need to do a paper records 
search to confirm. John Fenton said he needed more time to 
research county records and work with county planning to 
identify potential sources, there again from the meeting notes 
of April 11 from the pits working group under item #3.
    Mr. Doll. Congressman, you are absolutely correct. Those 
are continuing to be a work in progress. These are part of the 
working groups that have been meeting. We met four times in 
2011. None of this has been addressed in the draft report on 
Pavillion. It is a work in process, groups independent of the 
EPA's efforts on these two monitoring wells and what is put 
into that draft report.
    Mr. Tonko. So are they unstudied or----
    Mr. Doll. They are--well, there are no conclusions drawn. 
The study data has not been accumulated that I am aware of, so 
it is a work in process. So if I misspoke, it was only because 
the working group, it is a work in progress.
    Mr. Tonko. I appreciate that. I also observed that several 
of the statements in your testimony suggest that you do not 
believe the residents' wells are contaminated, that all 
substances are from natural sources. If so, why has the state 
offered five alternative methods for supplying water that you 
refer to in your testimony?
    Mr. Doll. The--sir, the five methods that were studied, 
that study was done by the Wyoming Department of Water 
Development, and the Wyoming Water Development Commission--
excuse me--put out a report in September of 2011 stating that 
there were five potential solutions for those landowners for 
water. It did not address cause or that there was a requirement 
for that. They were tasked by the previous Governor, Governor 
Freudenthal, to do that study and that is what that is 
referring to in my written testimony.
    Mr. Tonko. So then are you suggesting there is no well 
water contamination?
    Mr. Doll. What I am suggesting, sir, is that that report is 
out there and that there is an effort by the current Governor, 
Governor Mead, and state agencies to make sure that these 
people have clean drinking water. That may be a source. They 
will probably have to form a rural water district to be able to 
do that but that is something that the landowners themselves 
must initiate, not the State.
    Mr. Tonko. Mr. Chairman, I would ask that we put the 
documents that I referenced into the record, please.
    Chairman Harris. Without objection.
    [The information appears in Appendix II:]
    Chairman Harris. Thank you very much.
    I recognize the gentleman from California, Mr. McNerney, 
for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Thanks for holding 
this hearing. I want to thank the witnesses for coming forward 
today. This is a contentious issue.
    In my mind, there is two potential problems with hydraulic 
fracturing. One is the actual contamination, and the other is 
the public perception of health risks from possible 
contamination. They are not unrelated, but they are separate in 
a sense, and in my mind, the Environmental Protection Agency's 
involvement and test program will help address both of those 
problems. It will help make sure that--it will help identify 
contaminations and sources of contaminations, and it will help 
us put procedures in place to make sure that there are 
standards on the cement and casings to prevent contamination, 
which is a serious issue, but also help satisfy the public in 
terms of openness and transparency, that they are satisfied 
that the tests are being done and that everybody has access to 
the data. So what the EPA is doing in terms of doing the tests, 
releasing the data and now they are going to go through the 
peer review process, this is all part of what has to happen in 
order to satisfy the public, in my opinion.
    So Mr. Martin, we have heard a lot about hydraulic 
fracturing in the last several months including potential 
contamination from waste disposal and storage and inadequate 
cement outside the production casing. Can you briefly discuss 
the EPA's draft findings pertaining to the cement outside of 
the casings of some of the wells? In other words, what have you 
found about well integrity with regard to cement in casing?
    Mr. Martin. Well, Congressman, what we found was that most 
of the production wells did not have surface casing that went 
below the depth of the deepest domestic drinking water well in 
the underground source of drinking water, the aquifer. We found 
weak or absent cement in many of the wells at depth, and that 
was one of the reasons we hypothesized that a potential pathway 
for vertical migration of the materials that we found at the 
deeper levels of the aquifer. It is a potential pathway. We 
posited several potential pathways. We were unable to identify 
any one as the most likely or the pathway.
    Mr. McNerney. Okay. Good. If you look at the theory, it is 
good. They have these casings in cement and it is all sealed, 
but if there is integrity problems with the cement, then the 
whole thing goes out the window, and we need to make sure that 
there are procedure and standards in place to prevent that. We 
need the gas and everybody wants to get to it. We just need to 
make sure that it is done properly. In my opinion, your 
involvement with the EPA is going to help us get there.
    Mr. Goldstein, I understand you have concerns such as 
problems with inadequate cement. Can you discuss this as well, 
please?
    Mr. Goldstein. Yes. It goes back to what the public is 
hearing. The public is hearing that there is no problem with 
hydraulic fracturing, none gets to the surface, and at the same 
token, they are reading in the newspaper how a company has been 
fined a million dollars and communities on drinking water 
because a cement casing blew. Well, it is all assumed to be 
hydro fracking. The fact that it is a cement casing or the fact 
that there were drums on the surface about to be put 
underground and a truck backed into it and released the 
contents of the drums, these were all fracking fluid. They were 
all groundwater contamination from hydro fracking in the 
broader sense of the term. It is occurring. We are reading 
about it. So we can't ignore that this is going to happen. And 
as I showed you, some of the companies are, at least in terms 
of Pennsylvania's Department of Environmental Protection not 
following the rules very closely.
    Mr. McNerney. Well, what should we do in your opinion to 
make this as safe a procedure as possible?
    Mr. Goldstein. I basically believe that we will know better 
whether industry, which is trying, I think, in many cases, as 
we have heard, very hard to do the best they can. We will know 
how serious they are in a few months when EPA comes out with 
its draft best control technology, and will industry support 
that, work to get the best control technology or will they 
stonewall these rules because they don't like the rules? That 
to me will be the test of how industry really responds.
    Mr. McNerney. Is the Pavillion activity by the EPA, is that 
going to be beneficial in terms of us getting there, in terms 
of understanding what the potential problems are?
    Mr. Goldstein. Well, I hope so. I go back to the time I was 
Assistant Administrator at EPA, a contentious time under 
President Reagan. There are two types of studies we do. Some 
fit very well into what Chairman Harris described as a superb 
scientific study initiated by EPA. Some are more responsive. 
They are more public health-oriented studies in that you are 
responding to the public. You haven't designed how they put 
those wells down and what has been released. It is not a matter 
of putting a well down and every 500 foot releasing a tracer 
and see if it came up in a randomized approach. This is a 
matter of being responsive, and as I read this report, I think 
it has got all the hedges and all the appropriate responses, 
and I would like to see what happens with the peer review. I 
hope it is a good peer review that they use.
    Mr. McNerney. Thank you, Mr. Chairman. I yield back.
    Chairman Harris. Thank you very much, and we will have one 
other round of questions. I am going to again apologize to the 
witnesses for keeping you past noon, but this is such an 
important hearing.
    Mr. Doll, in your testimony you note that ``the draft 
report provides no data to show how these two EPA monitoring 
wells represent any water supply wells used by anyone in the 
Pavillion natural gas field.'' In your view, do the findings of 
the deep monitoring wells relate to drinking water issues cited 
by the complainants?
    Mr. Doll. Mr. Chairman, I do not believe that the report 
defines that or defends that properly. The actual information 
that we have seen from the data tells us that this gas and 
water that is found in these two monitoring wells is different 
than the gas and water that is found in the shallow drinking 
water aquifer. It is all the same formation. There is no 
barrier between the source rock at great depth and the 
formation that produces natural gas and serves as the aquifer.
    Chairman Harris. So you don't believe that those 622 pages 
released last night are going to change your opinion? I guess 
we have to wait to see what was released.
    Mr. Doll. I would hate to speculate on what would be 
their----
    Chairman Harris. Sure, and I am going to apologize for the 
Federal Government for taking so long to release that.
    Mr. Martin, Interior Secretary Salazar has been quoted as 
saying ``The jury is still out'' on the validity of the 
Pavillion study. Similarly, experts in the Interior's Bureau of 
Land Management viewed the draft report and communicated a 
number of concerns with the conclusions of the EPA the week 
before it was released to the state. Specifically, BLM's 
comments, they ``questioned the statistical validity of the two 
EPA monitoring well locations,'' highlighted that there is ``a 
serious lack of data if one is going to arrive at a specific 
source for the observed contamination'', third, raised 
``concern over the well development process'' and said that 
``arriving at conclusions at this stage is hasty, in my 
opinion'' and finally BLM concluded that ``the nature and 
extent of the contamination possible pathways and site 
conceptual models are not yet understood to the degree at which 
I would be comfortable assigning the source to anything 
including hydraulic fracturing.'' Why do you think that the 
experts, that your experts are right and BLM's are wrong? And 
have you discussed this at all with the Department of the 
Interior?
    Mr. Martin. Mr. Chairman, we had a series of meetings with 
both BLM and BIA as well as with the state and with Encana 
including one working group meeting with all of the 
stakeholders as well as certainly including the Bureau of Land 
Management. We are going to conduct an exhaustive, thorough 
peer review process. We are going to evaluate comments like 
that, which I have not seen, to be honest, and we are going to 
abide by the results of that peer review process.
    Chairman Harris. Well, thank you. Let me ask a question. 
Ms. Sgamma's testimony, or I guess it is not the testimony but 
it is the critical review of the draft report prepared for the 
American Petroleum Institute, so it is not that witness's. It 
says ``The EPA draft report jumps to the conclusion that 
hydraulic fracturing fluids are the source of many of the 
compounds found in the water samples from their two deep 
monitoring wells and that those materials have migrated to 
shallow or ground water.'' Is that a fair representation of the 
conclusion of the study, that hydraulic fracturing fluids are 
the sources of many of the compounds found in the water 
samples?
    Mr. Martin. I believe we said that it is likely the source.
    Chairman Harris. Really? On page 33 and 39 are the two 
places in the report, and you have already testified you have 
read the report and you know, I would point to you the page 
that had the other figures, but let us talk about page 33 and 
39 because that is where the conclusions are listed, and the 
word ``likely'' is only used in one place, and it is only used 
to say that gas production activities have likely enhanced the 
gas migration. That is the only place ``likely'' is used. The 
other two places--and Dr. Goldstein would appreciate this. It 
says that the data best supports. Now, in medicine, if you have 
10 differential diagnoses but one really isn't likely, what you 
say is well, you know, the data best supports this one but 
there are these other nine ones, and then you would say, well, 
do I treat that because it is not likely, it is best supported 
if that treatment would make the other ones worse or result in 
the death of a patient if you misdiagnosed. Can you describe 
what the difference is between best supports and likely, 
because the press release--and see, the whole purpose of this 
hearing is to say look, you are jumping the gun. The press 
release says ``likely'' but the draft report actually doesn't 
say ``likely'' about the migration of hydraulic fluid 
contamination. Could you address that? That is very important 
because that is the crux here because the press report said 
``likely.'' The EPA concluded that it is likely that hydraulic 
fluids were the contamination, the source of contamination, but 
that is not what the draft report says to my reading. Why is my 
interpretation wrong?
    Mr. Martin. Well, Mr. Chairman, I think I would say that we 
looked at a wide range of hypotheses including some that we 
have been able to discount based on the results that we have 
encountered in our research that all of the materials that we 
found at depth including the synthetic organic compounds, and 
there is a range of them, broader than what Mr. Doll referred 
to, to the fact that there are breakdown products of some of 
the materials that we found there. There is benzene, toluene, 
ethyl benzene and xylene, very, very high alkalinity levels 
that we found, the absence of strong buffers, the fact that 
potassium hydroxide was used as a cross linker and a solvent 
and aluminum chloride was used, things that account for the 
presence of both high potassium and chloride levels as well as 
the very high alkalinity, the caustic level of alkalinity. 
There is a number of different----
    Chairman Harris. Sure, I understand all that, but I assume 
a scientist wrote this report.
    Mr. Martin. Absolutely, sir.
    Chairman Harris. So why didn't they use the word ``likely'' 
with regards to hydraulic fracturing fluids? They didn't use 
the word ``likely.'' You used the word ``likely'' in your 
testimony and your press office used the word ``likely'' in the 
press release. But the scientists didn't. They said ``best 
supports,'' and I am going to use the exact words ``best 
fitting and best supports.'' Now, I have written many 
scientific papers, and when my P value wasn't high enough, this 
is what I used. When I couldn't say it is likely or--and 
likely, of course, we all know, you an attorney by training, I 
understand, that is just more likely than not. That is the 51 
percent test. It is not a P value of less than .05, it is not 
95 percent likely, it is just likely. But the report, the 
scientists in the report didn't even use the word ``likely.'' 
Why did you choose to use the word ``likely'' in your 
testimony? You agreed with the conclusion that it was likely 
the source, and the press release used the word ``likely.'' 
Why?
    Mr. Martin. Mr. Chairman, I guess I believe that those are 
equivalent, that we haven't--we have said a number of times 
that we haven't----
    Chairman Harris. Mr. Martin, I will--and I accept your 
answer but I will tell you, there is a world of difference 
between ``best supports'' and ``likely.'' As an attorney, you 
ought to understand that. Because my understanding is, the word 
``likely'' has a very specific meaning in a court of law.
    I now recognize the Ranking Member, Mr. Miller.
    Mr. Miller. Dr. Goldstein, you are on a panel with a lawyer 
and a lobbyist, and you seemed to be twitching at this last 
line of questions and answers. Do you have anything to--do you 
have an opinion about the questions that Mr. Martin has been 
fielding?
    Mr. Goldstein. Quite clearly, the word ``likely'' is a 
problem. It always has been a problem. I think ``likely'' can 
be used in a situation where there is far less than 50 percent. 
I am sure you use it in that way. I don't know why--it doesn't 
sound any real different to me is what I am hearing. Likely, 
best supports, they are just sort of different ways of sort of 
saying the same thing. Now, they could be interpreted in 
different ways quite clearly, and as I say, I read through the 
draft report having read some of the press accounts of it, and 
I thought again as a former Assistant Administrator that it was 
appropriately hedged based upon not really having the data.
    By the way, I would say that this Pavillion report, well, 
it doesn't have the data because as it says over and over 
again, this would be really a simple thing to do if there had 
been baseline studies. If you don't have baseline studies, you 
are responding to what is public. You can't conceivably have a 
perfect randomized control trial. You are going to have some 
degree of uncertainty. I think what this tells us is that those 
companies which are paying for water sampling of local 
community folks, local groundwater are doing the right thing 
and those who are not were just stirring up a lot of trouble 
for themselves because these kind of studies will come up again 
and they are going to be the ones who are going to be sued for 
basically contaminating water.
    Mr. Miller. Dr. Goldstein, I know that faculty humor is 
kind of an acquired taste, but there is a joke that 
administrators hate having scientists on their panels, on their 
committees because when the information changes, they change 
their opinion and you never know where they stand.
    Mr. Goldstein. Senator Muskie said it very well. He wanted 
one-handed scientists so he wouldn't on the one hand this and 
on the other hand that.
    Mr. Miller. That was Harry Truman's line about economists.
    Mr. Chairman, in my--in all the confusion of this hearing, 
I failed to move two documents into the record. The first is a 
report conducted in 2010 that is a survey of the health of 
residents of Pavillion. The participants again reported various 
health effects--headaches, sore throat, nausea, sinus problems 
and other illnesses that are known to be associated with the 
contaminants that the EPA found in the drinking water in 2009.
    And the second--and I believe both of these have been 
provided to the majority staff. The second is a letter to the 
Subcommittee from Pavillion Area Concerned Citizens, the Powder 
River Basin Resource Council, the Western Organization of 
Resource Councils. This also was provided to the Subcommittee 
with the perspectives of people who are actually affected by 
the contaminated groundwater, none of whom were invited to 
appear at this hearing today. It urges the Subcommittee to 
support the EPA's draft report.
    Chairman Harris. Without objection.
    [The information appears in Appendix II:]
    Mr. Miller. Mr. Doll, you said that you were doing the work 
of the citizens of that area but you don't contend that the 
various folks who are members of these organizations, 
particularly the concerned citizens--what is the name of it 
again, the letter that I just introduced, the Pavillion Area 
Concerned Citizens. They are not outside agitators, right? They 
are not--they didn't come in from Oakland or Greenwich Village 
just to request this review, right? They really live there in 
Pavillion and have right along. Isn't that right?
    Mr. Doll. I don't know who the membership is, to be honest 
with you. I don't know if it represents all of the landowners 
there or not.
    Mr. Miller. Do you know John Benton?
    Mr. Doll. John Fenton?
    Mr. Miller. Fenton?
    Mr. Doll. Yes, I do.
    Mr. Miller. Okay. Has he been right there in Pavillion 
right along?
    Mr. Doll. I don't know when he moved to Pavillion, no, sir, 
I do not.
    Mr. Miller. He is not an honest-to-God Wyomian, or whatever 
the phrase is?
    Mr. Doll. Wyomingite. I don't know when he moved to 
Pavillion. It was after the gas wells were drilled is what I 
understand but I don't know the date.
    Mr. Miller. Okay. Dr. Goldstein, your written testimony and 
your oral testimony, you said that the industry claims that 
hydraulic fracturing--the industry claims both hydraulic 
fracturing is an innovative new technology and don't worry, it 
has been around for years, decades, no problems with it, and 
that there is some contradiction in that. Do you think that we 
have sufficient--or how would you state--how would you describe 
the state of the science on natural gas drilling and fracking, 
and do policymakers have enough information to make informed 
decisions to protect public health?
    Mr. Goldstein. It is easiest to answer the second question. 
No, I don't think they do. I think that the idea that this has 
been around for so long and therefore don't worry about it is 
simply inappropriate. This is equivalent to when you have got 
five million gallons versus 50,000 gallons of fluid with 
changing chemical structure. You know, it is equivalent to 
saying well, there is no difference between a two-ton bomb and 
a hand grenade because they are both explosives, and we know 
about explosives. This is a tremendous increase in technology. 
We have in front of us all the time the industry folks in their 
commercials saying there is a wonderful new technology we are 
bringing that is going to get this gas. That is great. It is a 
wonderful new technology but we have to be careful with it.
    Mr. Miller. My time is expired, and I want to help the 
Committee abide by the rules.
    Chairman Harris. Thank you very much, Mr. Miller.
    I recognize the chairman of the Committee, Mr. Hall from 
Texas, for five minutes.
    Chairman Hall. Thank you.
    Mr. Martin, what involvement did the EPA headquarters have 
with your study?
    Mr. Martin. The study, Mr. Chairman, was conducted by 
scientists within the Office of Research and Development and 
scientists at Region 8, which is the region that I run. We 
involve scientists from elsewhere in the agency on occasion 
including the regional laboratory out of Pennsylvania, I 
believe it is. They were the people who did the work and wrote 
the study--or wrote the report, rather, sir.
    Chairman Hall. Did the EPA people or who reviewed the study 
plan?
    Mr. Martin. The study plan?
    Chairman Hall. Yes.
    Mr. Martin. To the best of my knowledge, Mr. Chairman, that 
was just the scientists working on the report. I certainly 
never saw the study plan. It would have been developed, the 
original one, under the last Administration. It would have been 
2008, so some years ago.
    Chairman Hall. Did they review the protocols?
    Mr. Miller. The protocols are standard and are in use 
throughout the agency, and I don't believe anyone outside the 
scientists working on this report were involved in evaluating 
or identifying protocols, Mr. Chairman.
    Chairman Hall. Did they approve of your media plan and your 
outreach to the media on a draft, a non-peer-reviewed report?
    Mr. Martin. I believe so, sir.
    Chairman Hall. Tell us exactly what oversight or 
involvement EPA headquarters had with the Region 8 on this 
report and the media release, if you can do that.
    Mr. Martin. Well, Mr. Chairman, we briefed the upper levels 
of management periodically as we were developing the report, as 
the scientists were developing the report, more precisely. We--
I know the Administrator met with Encana and spoke with the 
Governor of Wyoming late in the process. We have worked closely 
with the agency including the folks to whom I report and making 
sure that we were releasing the report in the way in which we 
could--the way in which best comported with the scientific 
report, a draft scientific report to which we plan to seek 
expert peer review. I mean, it is a very long, winding story, 
Mr. Chairman.
    Chairman Hall. Well, I agree with you there. In light of 
the use of Superfund authority to conduct this investigation 
and the differing results that came from Region 8 and the 
Office of Research and Development, I am interested in the 
relationship with EPA headquarters in carrying out the report, 
what that relationship actually was. That is what I am trying 
to get to.
    Mr. Martin. Well, the Assistant Administrator, Mr. Anastas, 
who was unable to be here today, was certainly involved in 
assuring that we were applying the strongest science, the best 
science and applying all of the protocols that apply here.
    Chairman Hall. Let me ask you this. How much has the EPA 
currently spent on the investigation and what does it plan to 
spend in the future?
    Mr. Martin. The first part of your question, Mr. Chairman, 
is easier to answer. It is roughly $1.7 million. We are now 
about to embark in a conversation with the State of Wyoming, 
the tribes, USGS and others about additional investigation at 
the site, and I don't know what that will cost or who will pay 
for it.
    Chairman Hall. When will you know?
    Mr. Martin. We haven't had our first meeting. We are hoping 
to do that soon so I am guessing relatively soon, sir.
    Chairman Hall. All right. I thank you, sir.
    Chairman Harris. Thank you very much, Chairman.
    We will have one more round of five minute questions. We 
will hold you a little bit longer because we need to get down 
to the very end of this and know what is going on.
    Mr. Doll, in the draft report, EPA found ``a wide variety 
of organic chemicals'' in its two monitoring wells, and I am 
sure that is the basis of the conclusion that Mr. Martin has 
testified to that, you know, these are hydraulic fracturing 
fluids, but could this be the result of EPA drilling its two 
monitoring wells into gas-producing zones? I mean, my 
understanding is, they actually had blowout preventers on top 
of these wells. They were supposed to be drilled, you know, 
into water aquifers, a little unusual. I have a well in my 
backyard. I don't think I put a blowout preventer on it when it 
was drilled. Could some of the contamination, well, what is 
claimed to be contamination, be the result of EPA drilling its 
two monitoring wells into gas-producing zones?
    Mr. Doll. Mr. Chairman, the experts from the Oil and Gas 
Conservation Commission, the Department of Environmental 
Quality and the Water Quality Office all believe that this is 
induced contamination due to the drilling and completion of 
these two wells.
    Chairman Harris. And is it true, I think I read in the 
report that actually there had been, I guess it is called a 
blowout or something, at a well in the area that was actually 
drilled for water, a relatively shallow well drilled for water. 
Is that correct?
    Mr. Doll. That is correct. That happened----
    Chairman Harris. A much shallower well than the EPA 
monitoring wells, because I think that well was only several 
hundred feet.
    Mr. Doll. The well was----
    Chairman Harris. The blowout well.
    Mr. Doll. Yes. That particular well was permitted to be a 
shallow water supply well but was drilled beyond that permitted 
depth and hit into a zone where the fluid, the drilling fluids 
were actually evacuated from the well bore in a loss of fluid 
and then natural gas entered it.
    Chairman Harris. And at what depth was that? Do you recall?
    Mr. Doll. I believe that was in that 900- to 1,000-foot 
range.
    Chairman Harris. So that was in the range of the EPA 
monitoring wells?
    Mr. Doll. Yes.
    Chairman Harris. Okay. I think a landowner did that, right?
    Mr. Doll. Yes, that is correct.
    Chairman Harris. So they weren't doing a monitoring well, 
they were just trying to drill for water and found gas?
    Mr. Doll. That well as permitted to be a water supply well, 
yes.
    Chairman Harris. So it not beyond the pale that the EPA 
drilled for water and found gas either at that depth?
    Mr. Doll. You should expect depth the deeper you go in this 
formation.
    Chairman Harris. That is what I thought.
    Mr. Martin, was EPA aware of this strong possibility and is 
that why the agency used blowout preventers when they drilled 
the wells? I mean, my understanding is, they add significant 
cost. Now, I understand that to the U.S. government, cost 
sometimes doesn't mean a whole lot, but I assume the EPA had a 
reasonable reason to believe that they could have a blowout and 
that is why they spent, you know, the hard-earned taxpayer 
dollars to put a blowout preventer on top of this well. Is that 
correct? I mean, did the EPA assume that they in fact could be 
drilling into a gas strata----
    Mr. Martin. Well, Mr. Chairman----
    Chairman Harris. --gas containing?
    Mr. Martin. Sorry.
    Chairman Harris. Yeah.
    Mr. Martin. Mr. Chairman, we knew that--I have forgotten 
the name of the individual who was drilling that well. We knew 
that he had experienced a blowout at about, I think it was 500-
some feet, which was unusual. We had some anecdotal evidence we 
are continuing to investigate, but given the fact that a 
blowout occurred, yes, we installed blowout protectors on the 
two drill rigs that drilled both of our monitoring wells out of 
concern for the safety of the workers.
    Chairman Harris. A concern, but knowing that in fact you 
could be drilling into gas. Mr. Doll, let me address this 
question to you. You don't have to have a blowout when you 
drill into a--because my understanding is that the shallower 
strata, the gas could be under much less pressure. I mean, you 
could have gas under much less pressure.
    Mr. Martin. That is correct, sir.
    Chairman Harris. So in fact, you could drill into it and 
not even know that you are drilling into a gas-containing 
substance because there is no blowout. I mean, it is not like a 
blowout preventer would show that there is a rise, you know, a 
spike in pressure, wow, we hit something that is high pressure. 
You could drill that well, conduct everything and you know, by 
golly, you actually have some natural gas in what you find in 
the bottom of that well.
    Mr. Doll. Typically, the use of water or just native mud 
that is mixed from the cuttings as you drill will be enough to 
control any of the low pressure that would encounter until you 
see your surface casing. Then after you have cemented it back 
to surface, you would put on your blowout preventer and drill 
deeper and that is required if you are drilling a gas well to 
depths close to 3,000 feet into the natural gas zone.
    Chairman Harris. Right.
    Mr. Martin, exactly why did you choose that deep? What was 
the rationale behind it, the monitoring wells, the depth? Why 
did you choose specifically to drill into a depth where you 
know or I guess if you communicated with the U.S. Geological 
Survey, you would know, or with the local, you know, Wyoming 
authorities, that you would know that there was a chance that 
you would be hitting natural gas while you are drilling a water 
well?
    Mr. Martin. Mr. Chairman, we were--the formation and the 
activity that has occurred there over the course of 50 or 60 
years is complex so I think several of us have alluded to the 
fact that legacy pits, they are not pits attributable to the 
current operator but that there are legacy pits that are 
contributing significant contamination to a relatively shallow 
part of the aquifer, that there are domestic drinking water 
wells, municipal wells and stock watering wells that are 
drilled from relatively shallow depths to as deep as 800 feet, 
and we were looking to drill a well that sort of sandwiched 
those, a set of wells that are somewhat deeper but shallower 
than the production zone. So we chose about 800 feet in depth 
below ground surface and about 1,000 feet in depth below ground 
surface. The shallowest fracking has occurred at 1,200 feet. 
The shallowest fracking in the area of these two wells has 
occurred around 1,600 feet. So we were trying to sandwich the 
domestic drinking water wells and the other wells so that we 
could get some better sense of whether there was a source of 
contamination that is deeper than those drinking water wells.
    Chairman Harris. Let me just follow up, and I will give the 
Ranking Member the extra time to even it up.
    But Mr. Martin, you used the word, and words are important, 
and you know, I am going to disagree with the doctor, and you 
have written scientific papers too. You know, you use words 
very specifically in your conclusions, and I disagree, I think 
the word ``likely'' by the way has a very different meaning 
from ``best explanation,'' a very, very different meaning. To a 
scientist, I think it is a very, very different meaning.
    But Mr. Martin, let me ask, because you say the word 
``producing well.'' But that is what is significant here 
because you could have small amounts of gas, not enough to 
produce at lower levels, and I think Mr. Doll's testimony, 
somewhere in here what I read is that at those shallower 
levels, you could have low pressure that no one would drill to 
to produce because you couldn't get gas out of it for 
commercial purposes, but it is there. So although you attempted 
to do what you are calling sandwiching, you are not sandwiching 
where--you are not saying--and again, I am drawing the 
extrapolation to Marcellus shale where you have got, you know, 
a mile of bedrock between the two. You don't have a mile of 
bedrock here. You have got, and my understanding of the geology 
is, you know, you have got this bowl of potato chips, and by 
this connection, there is connection between the two and some 
of the superficial potato chips that have sand in there 
actually have low-pressure gas but no one would drill into to 
produce. To produce, you would have to drill lower. So do you 
agree that you drilled into a location that was known--because 
we know we had a blowout somewhere between 500 and 800 feet, 
500 and 900 feet--known to have gas in it? Known, I mean, and 
look, everybody knew there was a blowout there that occurred at 
a depth shallower than you drilled your monitoring well.
    Mr. Martin. We had mud logs, Mr. Chairman, that suggested 
that in fact you wouldn't find those levels of natural gas at 
that depth but the fact that there had been a blowout at 
shallower depths also suggested that something perhaps has 
changed, and you are absolutely right, there is no lithologic 
barrier that we know of that would prevent the migration of 
either gas or either fluids vertically from the production 
zone, and in fact, we posited several hypotheses by which that 
is occurring, and that is the reason we chose those depths, to 
get some sense of whether in fact there is a deeper source that 
we could intercept with those monitoring wells.
    Chairman Harris. Well, thank you very much, and I defer to 
the Ranking Member, and you have 8-1/2 minutes to go.
    Mr. Miller. I won't use it all, Mr. Chairman.
    Curiously, the draft report that we have been discussing 
all morning is not part of the record, and someone reading the 
transcript of this hearing might wonder if the draft report was 
written in crayon, so it does appear that the draft report 
should be part of the record and I move that it be part of the 
record.
    Chairman Harris. I understand that we have no objection to 
parts of it, and it is sizable, I know, because I read it 
through and it has got a lot of appendices and things, but I 
will offer that our staff will work it out, and we will include 
parts of it. We will include parts of the draft report in the 
record.
    Mr. Miller. Okay, and I assume that will be anywhere the 
word ``likely'' appears.
    Chairman Harris. It only appears once.
    Mr. Miller. Dr. Goldstein, you were very critical today of 
three advisory panels that have looked at hydraulic fracturing, 
fracking. You have been very critical of their composition. 
Based upon your experience with EPA during the Reagan 
Administration, you are very familiar with the EPA. I assume 
you are familiar with EPA Science Advisory Board, and could you 
assess for us the composition of the SAB hydraulic fracturing, 
the fracking panel?
    Mr. Goldstein. Well, they have a broad representation of 
the sciences. SAB, I think, is an excellent organization that 
does a very good job of representing all of the different 
scientific disciplines.
    Mr. Miller. Okay. Chris Portier is the director of the 
National Center for Environmental Health at the Federal Centers 
for Disease Control and Prevention in Atlanta, and before that, 
he was in the triangle area of North Carolina, so I have met 
him, I know him and I know his reputation, which is very good, 
and he has called for studies into hydraulic fracking's impact 
on public health, effect on public health. He said more 
research is needed for us to understand public health impacts 
for natural gas drilling and new gas drilling technologies. 
That is similar to your own testimony today. Do you have a 
general sense of where the greater weight of scientific opinion 
is on the need for greater research?
    Mr. Goldstein. I think Dr. Portier is correct in that. He, 
Dr. Birnbaum, who is the head of the National Institute of 
Environmental Health Sciences, have also expressed themselves 
on the need for research on the mixtures issue. We had with 
oversight of this Committee a lot of research on mixtures 
during the time of the Superfund because you had unknown 
mixtures could appear. This needs to be repeated with using the 
new toxicological approaches, using molecular biology to better 
understand what mixtures--how mixtures threaten the potential 
for adverse effects.
    Mr. Miller. Mr. Chairman, I yield back.
    Chairman Harris. Well, thank you very much.
    I want to thank all the witnesses for their testimony and 
the Members for their questions. Again, I apologize as yet 
again for the delay at the beginning.
    The Members of the Subcommittee may have additional 
questions for the witnesses, and we will ask you to respond to 
those in writing. I will ask, because time is somewhat of the 
essence because the comment period is limited on this study, 
that you be timely if at all possible, and I will just leave 
that at that. Leave it to your own figuring what ``timely'' is. 
The record will remain open for two weeks for additional 
comments from Members.
    The witnesses are excused and the hearing is adjourned.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Mr. Jim Martin, Region 8 Administrator,
Environmental Protection Agency



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Tom Doll, State Oil & Gas Supervisor,
Wyoming Oil & Gas Conservation Commission



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Ms. Kathleen Sgamma, Vice President,
Government & Public Affairs, Western Energy Alliance



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Bernard Goldstein, Professor and Dean 
        Emeritus,
Graduate School of Public Health, University of Pittsburgh



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II:

                              ----------                              


                   Additional Material for the Record

     Submitted Report for the Record by Ranking Member Brad Miller



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 Submitted Letter for the Record by Pavillion Area Concerned Citizens,

                the Powder River Basin Resource Council,

           and the Western Organization of Resource Councils



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Submitted Documents for the Record by Mr. Ralph Hall, Chairman, 
      Committee on Science, Space, and Technology, U.S. House of 
                            Representatives



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Submitted Documents for the Record by Mr. Paul D. Tonko, Member, 
      Committee on Science, Space, and Technology, U.S. House of 
                            Representatives


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               <all>



</pre></body></html>
